<html>
<title> - NOMINATION OF NANI A. COLORETTI TO BE DEPUTY SECRETARY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT</title>
<body><pre>[Senate Hearing 113-464]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-464


                    NOMINATION OF NANI A. COLORETTI

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   THE NOMINATION OF NANI A. COLORETTI TO BE DEPUTY SECRETARY OF THE 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                               __________

                             APRIL 8, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 Available at: http: //www.fdsys.gov /
                 
                 
                                     ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-164 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001              


















                 


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                  Laura Swanson, Deputy Staff Director

              Brian Filipowich, Professional Staff Member

              Erin Barry Fuher, Professional Staff Member

                  Greg Dean, Republican Chief Counsel

            Chad Davis, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                       Taylor Reed, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)



















                            C O N T E N T S

                              ----------                              

                         TUESDAY, APRIL 8, 2014

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Crapo................................................     1
    Senator Warren...............................................     2

                                NOMINEE

Nani A. Coloretti, to be Deputy Secretary of the Department of 
  Housing and Urban Development..................................     3
    Prepared statement...........................................    10
    Biographical sketch of nominee...............................    12

                                 (iii)

 
     NOMINATION OF NANI A. COLORETTI TO BE DEPUTY SECRETARY OF THE 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:05 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. I gavel this hearing to order to order.
    Today we consider the nomination of Ms. Nani Coloretti to 
be Deputy Secretary of the U.S. Department of Housing and Urban 
Development. The HUD Deputy Secretary is a critical component 
of the agency's management team, overseeing the budget for 
HUD's programs that provide affordable rental housing, 
community development, opportunities, and an opportunity for 
all credit-worthy families to achieve the dream of home 
ownership. I believe Ms. Coloretti has the skills and 
experience necessary to take on this role.
    The nominee is currently the Assistant Secretary for 
Management at the U.S. Department of the Treasury. Prior to 
joining Treasury, she held positions at the San Francisco 
Mayor's office; the San Francisco Department of Children, 
Youth, and Their Families; and the U.S. Office of Management 
and Budget. She is also a recipient of the National Public 
Service Award, the Public Policy and International Affairs 
Achievement Award, and the Federal 100 Award.
    I believe Ms. Coloretti is an excellent choice to serve as 
the HUD Deputy Secretary and I hope that we can move quickly on 
her nomination. I now turn to Ranking Member Crapo for his 
opening statement.

                STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Thank you, Mr. Chairman, and welcome, Ms. 
Coloretti. Ms. Coloretti has been nominated to be the Deputy 
Secretary of the Department of Housing and Urban Development. 
If confirmed, this would make her the second-most senior 
official at HUD, and according to HUD, this position would 
manage the Department's day-to-day operations, the annual 
operating budget, and the agency's 8,900 employees.
    In Ms. Coloretti's current role at Treasury, she advises 
the Secretary of Treasury on the development and execution of 
Treasury's budget and strategic plans, as well as the internal 
management of the Department and its bureaus. Prior to this, 
she served as the Acting Assistant Secretary for Management and 
also the Deputy Assistant Secretary for Management and Budget.
    As such, it would seem that Ms. Coloretti possesses the 
necessary background to be successful at this role at HUD. 
Given this, what I would like most to hear from Ms. Coloretti 
this morning is, if confirmed, how she expects her management 
style to impact not only the inward operations of HUD, but also 
HUD's outward facing interactions with stakeholders, affected 
persons, and Congress.
    I commend HUD for its work with Congress, especially as it 
pertains to our efforts on housing finance reform. Secretary 
Donovan and senior members of his staff have spent countless 
hours with the Chairman, myself, and our staffs working toward 
solutions that we can all support.
    Likewise, I commend the Secretary and his staff on their 
outreach to this body and advocacy of each of us, ending the 
status quo and moving forward with this legislation. It will 
certainly take efforts of all of us to successfully implement 
the needed changes in this area.
    Ms. Coloretti, what I hope you will be able to do, if you 
are confirmed to this position, is to spread that spirit of 
cooperation throughout all the employees and departments of the 
agency. During our questioning, I look forward to you 
discussing some examples of where you have had the opportunity 
to be a positive influence in that respect.
    Thank you again for appearing before the Committee today 
and I look forward to hearing more from you. And I thank you, 
Mr. Chairman, for holding this hearing.
    Chairman Johnson. Thank you, Senator Crapo. Senator Warren 
will know introduce Ms. Coloretti. Senator Warren.

             STATEMENT OF SENATOR ELIZABETH WARREN

    Senator Warren. Thank you, Mr. Chairman. I am delighted 
today to welcome Nani Coloretti to the Banking Committee. 
Before my time in the Senate, I had an opportunity to work at 
the Treasury Department to set up the new Consumer Financial 
Protection Bureau. By the time I arrived, Nani had already been 
hard at work with a team of Treasury employees putting together 
the pieces for what would eventually become the Consumer 
Bureau.
    I had the chance to work closely with Nani at the time and 
I got to know her as someone with vision, with persistence, 
warmth, dedication, and perhaps most of all, as an operational 
whiz. Nani is someone who can take on any challenge, no matter 
how big, how complicated, or how difficult, and we had a number 
of challenges for her to take on.
    Nani is dedicated to Government service and her background 
working for the Treasury Department, the city of San Francisco, 
and the Office of Management and Budget is broad and deep. I am 
very pleased to see Nani nominated for this new role and she 
has my strong, heartfelt support for it. HUD will be lucky to 
have her.
    Chairman Johnson. Thank you, Senator Warren. We will now 
swear in Ms. Coloretti. Please rise and raise your right hand.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Coloretti. I do.
    Chairman Johnson. Do you agree to appear and testify before 
any duly constituted Committee of the Senate?
    Ms. Coloretti. I do.
    Chairman Johnson. Please be seated. Your full written 
statement will be made part of the record. Before you begin 
your statement, I invite you to introduce your family and 
friends in attendance.
    Ms. Coloretti. Thank you so much. Chairman Johnson, Ranking 
Member Crapo, Senator Warren, and distinguished Members of the 
Committee, it is a great privilege to be here, and I just 
wanted to take a minute to introduce my husband of over 15 
years, David Goldstein, who I met many years ago at UC-Berkeley 
School of Public Policy, and he is a teacher and an education 
policy consultant and shares a commitment to public service, 
and has also been just a fantastic supportive partner during my 
years of service.
    We are also proud of our son, our 12-year-old son, Kaleo 
Goldstein-Coloretti, who is a committed student and athlete, 
but he also composes his own songs, volunteers at the public 
library, and reminds both of us to always look on the bright 
side.
    I am joined here by several colleagues from Treasury and 
friends and colleagues from HUD and from other parts of my 
life. So welcome to the very sympathetic audience that I have 
here.
    Chairman Johnson. Ms. Coloretti, please begin.
    Ms. Coloretti. Sure, thanks.

 STATEMENT OF NANI A. COLORETTI, TO BE DEPUTY SECRETARY OF THE 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Coloretti. I come from a family with a tradition of 
community service and one that represents the best of what our 
country has to offer. My grandparents on both sides of my 
family were immigrants from three different countries, the 
Phillippines, Italy, and Spain, and they all came to America in 
search of a better life. My Filipino grandfather was first a 
minister and later a community organizer to address the working 
conditions for Filipino workers in Hawai`i's sugar cane fields, 
and my grandmother was one of the first in a long tradition of 
Filipino nurses.
    My mother, one of six children, was also a nurse and later 
became a preschool teacher. The tradition of service was 
reinforced by my parents' decision to raise their five children 
in the beautiful State of Hawai`i. Because Hawai`i is a set of 
islands with a diverse population, it is there that I learned 
how to listen, how to celebrate differences, and to make space 
for others. These values of community involvement and inclusion 
directly contribute to my values and my passion for public 
service today.
    I bring over 20 years of experience in budget, finance, 
economic and program analysis, and implementation skills, as 
well as over 15 years managing and leading teams to accomplish 
better outcomes. Much of my experience has helped deliver 
better value for the public by grounding public organizations 
in a strong operational context. My work spans the public and 
private sectors, and I have contributed to improving outcomes 
and increasing efficiency at the local, State, and Federal 
Government levels.
    My Federal service started just after graduate school when 
I arrived in Washington, DC, to join the Office of Management 
and Budget as a Presidential management intern. At that job, I 
got helpful exposure to Federal budgeting and performance 
management, and also learned how to ask the right questions, 
and seek ways to invest even while reducing the budget.
    I left as Congress passed the Balanced Budget Act of 1997 
while creating the State Children's Health Insurance Program. A 
few years later, I began a 10-year stint at the City and County 
of San Francisco. While there, I helped manage a small 
department called the Department of Children, Youth, and Their 
Families, and later went on to serve Mayor Gavin Newsom as his 
Deputy Policy Director and then as his Budget Director.
    At the Department, I led teams that helped children and 
youth by partnering with other agencies across the city, the 
private sector, and public foundations. For example, we 
expanded and enhanced high quality early child care and 
education and after-school options by grounding our analysis in 
data, consulting with the community, and rethinking how to best 
use public funding streams, ultimately adding 3,000 more high 
quality child care spaces over a number of years.
    At the Office of Mayor Gavin Newsom, I led cross-cutting 
teams to implement universal health care coverage and a 
citywide wellness initiative, to addition to balancing three 
citywide budgets.
    At Treasury, I have been fortunate to work for Secretaries 
Geithner and Lew and they have both supported efforts to 
modernize Treasury systems and structures, even in a time of 
diminishing resources. This effort has largely been aided by a 
data-driven approach to decision making. Over the last 4 years, 
I helped Treasury create and sustain an analytical approach to 
management through quarterly performance reviews run by the 
Deputy Secretary of Treasury and my position, the Assistant 
Secretary for Management.
    Through this effort, we have provided visibility into 
Treasury's operations for decision making and accountability, 
which has yielded over $1 billion of savings and has also 
allowed the Department to better complete the merger of two its 
bureaus, and also meet some of its priority goals, such as 
processing over 95 percent of payments electronically instead 
of on paper.
    To create a culture of continuous improvement at Treasury, 
I focused on operational effectiveness and Government 
performance and governance by applying lean principles 
developed in the private sector to dozens of process-improving 
projects. This work has yielded improvements such as data 
reporting efforts that now span hours instead of days.
    I have also set up a governance structure to review all of 
our IT investments, providing a forum to track cross-cutting 
efforts across bureaus, such as the closure and consolidation 
of 18 data centers over the last 4 years.
    All of this work continues to help Treasury structure 
itself for the future. The role of the Deputy Secretary is to 
be the chief operating officer, and if confirmed, I will work 
under the Secretary's direction to manage the day-to-day 
operations at HUD. I will build on the legacy of those who came 
before me and did impressive work, including continuing the 
transformation of HUD's human resources and financial 
management systems.
    I am humbled and honored by the nomination and grateful to 
the President and Secretary Donovan for asking me to serve the 
country in this capacity. If confirmed, I will apply my 
experience, energy, values, and passion to build upon the great 
work that is already happening and further improve the 
effectiveness of HUD. Thank you for allowing me to appear 
before you today and I will answer any questions that you have.
    Chairman Johnson. Thank you for your testimony. As we begin 
questions, will the clerk please put 5 minutes on the clock for 
each Member?
    Ms. Coloretti, what would your priorities be for HUD as 
Deputy Secretary?
    Ms. Coloretti. Thank you for that question, Senator. HUD 
has recently released, in their strategic plan for FY14 to 
2018, a list of top management priorities at the agency. My 
priorities would be developed using this as a guide post and in 
consultation with the Secretary, but the efforts include things 
like transforming their procurement system, grants management, 
and human capital management.
    If confirmed, I would also support efforts to address HUD's 
recent financial audit and significant deficiencies.
    Chairman Johnson. The Deputy Secretary of HUD has 
traditionally acted as chief operating officer. If confirmed, 
do you see yourself playing this role at HUD, and how has your 
experience prepared you for this?
    Ms. Coloretti. Thank you for that question. If confirmed, I 
would continue to be the chief operating officer at HUD, and my 
experience at Treasury really helps guide this. Right now I 
manage all operational areas of Treasury, including Finance and 
Budget, Procurement, Information Systems, and Human Resources, 
and it is from this role that I actually work with all the 
bureaus to drive efficiency, accountability, transparency, and 
improvements at Treasury. So I think that that experience would 
serve me well at HUD.
    Chairman Johnson. HUD plays an important role in helping 
American Indian tribes meet their best needs for safe, high 
quality housing. Are you familiar with the housing needs in 
Indian Country? If confirmed, do you commit to working with me 
to address these housing needs and engaging in consultation 
with tribes?
    Ms. Coloretti. Thank you for the question. I have not had 
the opportunity to work on the Native American issues in the 
past. However, I know these issues are very important, 
critically important. If confirmed, I will learn more about 
these programs and work with you and your staff to ensure that 
they are effectively implemented.
    Chairman Johnson. In the past, HUD has had issues with its 
audits. What steps would you take, as the Deputy Secretary, to 
improve HUD's audits?
    Ms. Coloretti. Thank you for that question. It is an 
excellent question. So first, I would need to learn more about 
their material weaknesses and significant deficiencies in the 
audit. My understanding is that they have been there for a few 
years. My understanding is also that they have some ideas to 
transform some of their core financial systems. So that is the 
first place I would look.
    And then I would identify a set of milestones to 
implement--but really, this would be done in partnership with a 
chief financial officer who I am hoping will one day be 
confirmed as well so that I could get someone to help partner 
with me on that work.
    Chairman Johnson. Oftentimes, local governments work with 
HUD as grantees and partners in housing and community 
development efforts. In your experience in the San Francisco 
Municipal Government, did you work at all with HUD? How would 
your experience working in a local government inform your 
decisions as Deputy Secretary of HUD?
    Ms. Coloretti. Thank you for that question. As Budget 
Director in San Francisco, I got visibility into all of the 
funding streams, into the city and county, and my understanding 
is that HUD was very helpful in helping San Francisco implement 
its Housing First strategy. And part of the reason for that is 
because of the McKinney-Vento grant program and other programs 
that were allowed to leverage with local dollars to address 
some of the Housing First needs to house--to provide supportive 
housing to San Franciscans.
    So I have had a great visibility into the good work that 
HUD is able to do on the ground. Although I did not work with 
HUD directly at San Francisco, I know that it is a good partner 
for local communities and can really make a difference.
    Chairman Johnson. What are some best practices you have 
learned in your Government experience that you would apply to 
the Deputy Secretary role at HUD?
    Ms. Coloretti. One of the key best practices, both that I 
have learned at the local government and also have applied at 
Treasury is something I mentioned in my opening statement, 
which is really a relentless focus on quarterly reviews to 
basically track a number of management and operational metrics 
and milestones.
    That helps both bring visibility to leadership from--in 
Treasury, we are organized by bureaus, so from the bureaus, but 
also provides a forum to troubleshoot around why a particular 
issue, and let us just say it would be a material weakness in 
an audit, is either gaining traction or not gaining traction.
    That practice is fairly rigorous, but it does yield results 
when you focus on outcomes and you focus on those metrics. So I 
would hope to bring that to HUD, and I understand they do 
quarterly reviews as well. I think I would be able to bring 
some of the management suite of metrics that we use at 
Treasury. It might help HUD, if helpful, if confirmed.
    Chairman Johnson. Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman. And, 
Nani, you may not be surprised, but I want to talk about GSE 
reform. As I indicated in my opening statement, I really 
appreciate Secretary Donovan's efforts in this regard, and the 
assistance that we have received from HUD in putting together 
the legislation that the Chairman and I have recently put out, 
the expertise and, frankly, the assistance in working through a 
number of the issues has been invaluable.
    My main question to you is just to elicit from you your 
feelings about how important you feel it is that we move ahead 
on this legislation right now, and why--assuming you agree that 
we need to move forward on this legislation expeditiously, why 
you feel that is necessary.
    Ms. Coloretti. Senator, thank you for that question. It is 
an excellent question. I am aware of the ongoing bipartisan 
housing reform work, housing finance reform work that this 
Committee is doing. I am not currently involved in it in my 
current position at Treasury. However, I am supportive of the 
substantive reform efforts that this Committee is doing and the 
ongoing process.
    And if confirmed, I would be happy to both engage with you 
and the Secretary, obviously, and see if I can be helpful in 
any way to this effort.
    Senator Crapo. Thank you. I hope that we can get you 
confirmed soon so that you can get very heavily engaged in that 
effort. We really need that assistance. I also want to talk 
with you a little bit about FHA. Recently, some groups have put 
pressure on FHA to lower insurance fees, despite FHA's 
insurance fund still operating below the minimum capital ratio 
that is required by statute to maintain.
    Given that this insurance fund is the only protection that 
taxpayers have in preventing another bailout of FHA, it would 
seem to me that it is important that FHA maintain its legal 
obligations and rebuild the insurance fund. Do you agree that 
the FHA insurance fund must regain its statutory minimum 
obligations before entertaining the idea of any reductions in 
the revenue that it collects to insure against those losses?
    Ms. Coloretti. Senator, I thank you for that question. I am 
not aware of this issue in the detail that you mention, but I 
am generally supportive of FHA solvency. I would note that the 
President's budget says that FHA would actually not need 
another appropriation in the coming year. However, if 
confirmed, I intend to learn more about it so we can have a 
more in-depth conversation and see if we can work together to 
get FHA on solid footing.
    Senator Crapo. All right. Thank you. I would encourage you 
to pay close attention to this issue because we do not want to 
have the budget of the United States kicking in again and 
having yet again another bailout of FHA, and I think that its 
solvency needs to be managed very carefully. So I appreciate 
your attention to that.
    I also want to talk to you about transparency in general. I 
ask this question in this context: If confirmed, you will 
manage the day-to-day operations at HUD. And as such, your 
management provides you with the opportunity to instill the 
importance of transparency and cooperation by HUD with HUD 
stakeholders, with Congress, and others, frankly.
    I recently asked a previous HUD nominee a series of 
questions related to actions that were brought by HUD, and 
specifically, I asked if he believed that a Federal agency 
should at least share the analysis that it uses to bring an 
action with the entity being accused. Not only did the nominee 
decline to indicate support for this basic level of 
transparency, but he did not appear to directly answer any part 
of my question.
    If confirmed, will you work to instill upon those you 
manage a culture that fosters more open communication, both 
with stakeholders with whom HUD deals, and with Congress?
    Ms. Coloretti. Senator, thank you for that question. First, 
if I could mention, I do sit on the Government Accountability 
Transparency Board, which is comprised of a few departments and 
several IGs, and we work together to bring transparency to 
Federal financial and procurement data. So I am very supportive 
of the concept that more transparency is a good thing.
    I am not aware, in any detail, of the issue that you raise, 
but certainly if confirmed, I would work with you and your 
staff to understand more about it, have a more in-depth 
conversation, and see how I could be helpful.
    Senator Crapo. Thank you very much.
    Chairman Johnson. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. The advantage to 
being the junior Member on the Committee is that I get to 
follow the good and detailed questions of the Chairman and the 
Ranking Member.
    As I noted in my introductory remarks, you have been 
managing and overseeing Governmental agencies for over two 
decades, starting at the Office of Management and Budget, and 
then at various positions in local government in San Francisco, 
and finally as Acting Assistant Secretary for Management at the 
Treasury Department.
    So you have a lot of experience managing bureaucracies, 
large and small. And what I would like to ask you to do is just 
spend a minute reflecting on what lessons you have learned from 
this range of management experiences.
    Ms. Coloretti. Sure. Thank you for that question, Senator. 
One thing that I have learned is that--this is going to sound 
like a cliche, but it is very important to have the best people 
and to have them in the right places and to support them, 
because--and you know this. As you go higher up in an 
organization, you are doing your work through people.
    And so, you are a facilitator of the very best work that 
that agency, that group, that team can bring. And that requires 
really just understanding your team and being able to deploy 
them in the right way and supporting them when they do their 
work.
    The second thing that I know you also are aware of is, it 
is important to understand how to work with the different 
systems that support an agency, and I think this is what I can 
bring to HUD. In other words, how does the procurement system 
work and can you make it better? Can you make that process work 
better? Does the financial system do what it needs you to do?
    These are sort of the wiring and piping of any 
organization, but they really can help programs and policies 
succeed if they are both understanding the mission and the 
outcomes that are hoped for and supporting them adequately.
    Senator Warren. That is very helpful. Thank you. Can you 
just give me some insight from your perspective about the 
special challenges you think you will face at HUD or the 
special opportunities or, let us say, both? Maybe that is even 
better.
    Ms. Coloretti. Let us call them opportunities.
    Senator Warren. OK. Good.
    Ms. Coloretti. Thank you for that question, Senator. Like 
many Federal agencies, HUD has a fantastic set of very 
committed civil servants working very hard every day to do what 
looks to be a very difficult portfolio, but important to 
communities and to this country. And also like many agencies, 
some of its deepest challenges are in its operating systems.
    And so, HUD itself has identified these in their strategic 
plan that they just released and you do see some of it in their 
audit. Some of their biggest challenges are really around their 
human capital, both systems and processes and their grants 
management and financial management, and those are some of the 
things I hope I can help HUD improve.
    Senator Warren. Excellent. As I said in my opening 
statement, you have my wholehearted support, and if you are 
confirmed to this position, I hope that we will be able to work 
together to help advance HUD's very important mission. Thank 
you very much. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Ms. Coloretti, for your 
testimony and for your willingness to serve our Nation.
    I ask all Members to submit questions for the record by COB 
this Friday, April 11. Ms. Coloretti, I will ask you to please 
submit your answers to the written questions as soon as 
possible so that we can move your nomination forward in a 
timely manner. This hearing is adjourned.
    [Whereupon, at 10:31 a.m., the hearing was adjourned.]
    [Prepared statements and biographical sketch of nominee 
supplied for the record follow:]
                PREPARED STATEMENT OF NANI A. COLORETTI
     To Be Deputy Secretary of the Department of Housing and Urban 
                              Development
                             April 8, 2014
    Chairman Johnson, Ranking Member Crapo, and distinguished Members 
of the Committee, it is a great privilege to appear before you as 
President Obama's nominee to be Deputy Secretary of the Department of 
Housing and Urban Development. Before I begin, I would like to 
introduce my husband of over 15 years, David Goldstein, who I met many 
years ago at UC Berkeley's school of public policy. As a teacher and 
education policy consultant, he shares a commitment to public service, 
and he has been a fantastic, supportive partner during my years of 
Government service and private sector work. We are both very proud of 
our 12-year-old son, Kaleo Goldstein-Coloretti, who is a committed 
student and athlete but he also composes songs, volunteers at the 
public library, and reminds both of us to always look on the bright 
side.
    I come from a family with a tradition of community service and one 
that represents the best of what our country has to offer. My 
grandparents on both sides of my family emigrated here from three 
different countries: the Philippines, Italy, and Spain, and all came to 
America in search of a better life. My Filipino grandfather was a 
minister and later became a community organizer to address working 
conditions for Filipinos in Hawai`i's sugar cane fields. My grandmother 
was one of the first in a long tradition of Filipino nurses. My mother, 
one of six children, and was also a nurse and later, a preschool 
teacher. This tradition of service was reinforced by my parents' 
decision to raise their five children in the beautiful State of 
Hawai`i. Because Hawai`i is a set of islands with a diverse population, 
it is there that I learned how to listen, celebrate differences, and to 
make space for others. These values of community involvement and 
inclusion directly contribute to my passion for public service today.
    I bring over 20 years of experience in budget, finance, economic 
and program analysis, and implementation skills, as well as over 15 
years managing and leading teams to accomplish multiple outcomes. Much 
of my experience has helped deliver better value for the public by 
grounding public organizations and programs in a strong operational 
context. My work spans the public and private sectors, and I have 
contributed to improving outcomes and increasing efficiency at the 
State, local, and Federal Government levels.
    My Federal service started just after graduate school, when I 
arrived in Washington, DC, right out of graduate school to join the 
Office of Management and Budget as a Presidential Management Intern. At 
that job, I got helpful exposure to the Federal budgeting and 
performance management framework and learned how to ask the right 
questions and seek ways to invest even while reducing the budget. I 
left as Congress passed the Balanced Budget Act of 1997 while creating 
the State Children's Health Insurance Program.
    A few years later I began a 10-year stint at the City and County of 
San Francisco. While there, I helped manage a small department and 
later went on to serve Mayor Gavin Newsom as his deputy policy director 
and then as his budget director. At the Department of Children, Youth 
and Their Families, I led teams that helped children and young people 
by partnering with other agencies across the city, the private sector, 
and public foundations. For example, we expanded and enhanced high 
quality early care and education and after school options by grounding 
our analysis in data and rethinking how best to use public funding 
streams, ultimately adding 3,000 more high quality child care spaces.
    At the Office of Mayor Gavin Newsom, I led cross-cutting teams to 
implement universal health care coverage and a citywide wellness 
initiative. As budget director for San Francisco, I balanced three 
consecutive budgets, the last year being the most difficult since we 
faced a $575 million shortfall--initially about half of the city's 
discretionary budget. I balanced the budget that year by working with 
the legislative branch to prioritize core city services, working with 
the unions, and managing the city's revenue effectively.
    At Treasury, I have been fortunate to work for two great 
Secretaries and they have both supported efforts to modernize 
Treasury's systems and structures even in a time of diminishing 
resources. This effort has largely been aided by a data-driven approach 
to decision making. Over the last 4 years, I helped Treasury create and 
sustain an analytical approach to operations and management through 
quarterly performance reviews, run by the Deputy Secretary of Treasury 
and my position, the Assistant Secretary for Management. Through this 
effort, we have provided visibility into Treasury operations for 
decision making and accountability, which has yielded over $1 billion 
dollars in budget savings, allowed the department to better complete 
the merger of two bureaus (saving $96 million over 10 years), and 
allowed Treasury to more successfully achieve its priority goals, such 
as processing over 95 percent of payment transactions electronically 
instead of on paper.
    To create a culture of continuous improvement at Treasury, I have 
focused on operational effectiveness and governance. I helped create a 
new Treasury Operations Excellence team, which has successfully applied 
lean principles developed in the private sector to improve performance 
at Treasury. This work encompassed dozens of process improvement 
outcomes--ranging from an eightfold efficiency gain in processing 
visitor access requests to the Main Treasury building to improvements 
in data reporting efforts that now span hours instead of days. This 
work has saved Treasury money and staff time while engendering a 
culture of continual improvement. I have also set up a governance 
structure to review all IT investments, providing a forum to track 
cross-cutting efforts across bureaus, such as the closure and 
consolidation of 18 data centers over the last 4 years. Treasury 
continues to achieve clean audit opinions with no new material 
weaknesses since fiscal year 2009, which is an accomplishment that I am 
proud of considering the complexity and breadth of Treasury's programs 
and financial systems. All of this work continues to help Treasury 
structure itself for the future.
    The role of the Deputy Secretary is to be the Chief Operating 
Officer, and if confirmed, I will work under the Secretary's direction 
to manage the day-to-day operations at HUD. I will build on the legacy 
of those who came before me and did impressive work, including 
beginning the transformation of HUD's human resources and financial 
management systems.
    I am humbled and honored by the nomination and grateful to the 
President and Secretary Donovan for asking me to serve the country in 
this capacity. If confirmed, I will apply my experience, energy, values 
and passion to build upon the great work that is already happening and 
further improve the effectiveness of HUD.
    I thank you for allowing me to appear before you today and will 
answer any questions you have.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
